                                                                Issue Date
                                                                January 23, 2008
                                                                Audit Report Number
                                                                2008-NY-1003




TO:        Vincent Hom, Director, Office of Community Planning and Development, 2AD


           For
FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: The City of New York’s Department of Housing Preservation and Development,
         New York, New York, Had Administrative Weaknesses in Its HOME Program

                                   HIGHLIGHTS

 What We Audited and Why

             We performed an audit of the HOME Investment Partnerships Program (HOME)
             administered by the City of New York’s Department of Housing Preservation and
             Development (the City), New York, New York, as part of the Office of Inspector
             General’s (OIG) work plan goals to address Community Development Block
             Grant program issues and improve the U.S. Department of Housing and Urban
             Development’s (HUD) execution and accountability regarding fiscal
             responsibilities. We selected the City based upon our risk assessment of HOME
             grantees monitored by the HUD New York City Office of Community Planning
             and Development. The audit objectives were to determine whether the City (1)
             properly committed and disbursed HOME funds; (2) adequately monitored its
             community housing development organizations, projects, and contractors; and (3)
             correctly reported its match contributions.

 What We Found
             The City generally committed and disbursed HOME funds in accordance with
             HOME regulations; however, there were weaknesses in its monitoring
             procedures, which caused noncompliance with HOME regulations. Specifically,
             the City did not (1) recertify or evaluate performance of its community housing
           development organizations as required, (2) close out seven projects in HUD’s
           Integrated Disbursement and Information System within the prescribed
           timeframe, and (3) use correct affordability periods for monitoring its completed
           projects. As a result, the City lacked assurance that its community housing
           development organizations were properly organized and operated effectively, data
           in HUD’s Integrated Disbursement and Information System accurately reflected
           the status of its HOME funds, and HOME-funded projects being monitored met
           the statutory HOME eligibility requirements throughout the affordability periods.

           Additionally, the City overstated its match contribution by incorrectly calculating
           and reporting its match contributions. While the City met its HOME match
           requirements and reported a substantial balance of match contributions made in
           excess of the required amounts, the erroneous calculation resulted in $34.1
           million of ineligible match carried forward as a balance for use in future years.

What We Recommend
           We recommend that the Director of HUD’s New York Office of Community
           Planning and Development require the City to (1) implement procedures to
           recertify its community housing development organizations and evaluate their
           performance, (2) enter information into HUD’s Integrated Disbursement and
           Information System to reflect the current status of seven old projects that have not
           been closed out, (3) implement procedures to ensure that all completed projects
           are monitored for the specified affordability period, (4) remove $34.1 million in
           ineligible match from its 2007 HOME Match Report, and (5) establish procedures
           to accurately report the value of match contributions for each of its programs.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           We discussed the results of our review during the audit and provided a draft report
           to the City on December 12, 2007. We held an exit conference on January 9,
           2008. We requested that any written comments be provided by January 14, 2008,
           and we received a written response on January 16, 2008. The City generally
           agreed with the findings and has begun implementing corrective action to address
           our recommendations. The complete text of the City’s response, along with our
           evaluation of that response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
      Finding 1: Weaknesses Existed in the City’s Procedures for Monitoring   6
                 HOME Funds

      Finding 2: The City Incorrectly Calculated and Reported Its Match       11
                 Contributions

Scope and Methodology                                                         14

Internal Controls                                                             16

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use          18
   B. Auditee Comments and OIG’s Evaluation                                   19




                                             3
                                       BACKGROUND AND OBJECTIVES

The HOME Investment Partnerships Program (HOME), authorized under Title II of the
Cranston-Gonzalez National Affordable Housing Act, as amended, is designed to create
affordable housing for low-income households. The program provides formula grants to States
and local governments to fund a wide range of activities that build, buy, and/or rehabilitate
affordable housing for rent or homeownership or provide direct rental assistance to low-income
people. Program regulations are found in the HOME Investment Partnerships Program Final
Rule at 24 CFR (Code of Federal Regulations) Part 92, and U.S. Department of Housing and
Urban Development (HUD) program guidance is contained in its guidebook entitled Building
HOME, dated February 2006.

The City of New York’s Department of Housing Preservation and Development (the City)
administers the funds provided under HOME. The City is the largest municipal developer of
affordable housing in the nation and uses funds provided under HOME to make loans through
programs that serve low-income renters and owners, as well as homeless families and
individuals. The Department of Housing Preservation and Development is administered by
Commissioner Shaun Donovan and several deputy commissioners. Responsibility for HOME
funds is decentralized among the deputy commissioner for intergovernmental affairs; deputy
commissioner for development; deputy commissioner for budget, fiscal, and engineering audit;
and deputy commissioner for housing operations.

New York City was awarded $241 million and drew down $225.7 million in HOME funds
during the audit period, October 1, 2004, through September 30, 2006. As shown below, the
City administered various programs with its HOME funds.

                          Program name                                                                                      Amount drawn
     Article 8A Loan Program                                                                                                    $ 2,316,340
     City/State Permanent Housing for the Homeless (85/85)                                                                          5,380,612
     Converted HOME Activities 1                                                                                                  36,113,820
     Cornerstone Program                                                                                                              189,185
     Neighborhood Entrepreneurs Program                                                                                           72,602,781
     Neighborhood Redevelopment Program                                                                                           33,907,573
     Participation Loan Program                                                                                                   15,702,835
     Small Buildings Loan Program (formerly Small Homes
     Private Loan Program)                                                                                                                 6,812,816
     The Supportive Housing Program                                                                                                       38,886,338
     Third Party Transfer                                                                                                                 13,795,569
     Total                                                                                                                              $225,707,869


1 Converted HOME Activities consists of prior HOME projects originally recorded in HUD’s Line of Credit Control System, which were converted to HUD’s Integrated Disbursement and
   Information System as well as funds for administration. These prior HOME projects were from the Neighborhood Entrepreneurs Program, Neighborhood Redevelopment Program,
   Phase Piggy Back, Southside United, and New York City.




                                                                                       4
We reviewed completed projects from the Neighborhood Entrepreneurs, Neighborhood
Redevelopment, and Supportive Housing Programs. The Neighborhood Entrepreneurs Program
identifies neighborhood-based property managers and developers to manage rehabilitation of and
later own occupied and vacant City-owned buildings. The City drew $54.5 million in HOME
funds to complete 38 projects under the Neighborhood Entrepreneurs Program. The
Neighborhood Redevelopment Program provides financing to enable experienced, locally based
not-for-profit organizations to acquire and rehabilitate occupied City-owned buildings. The City
drew $124.7 million in HOME funds to complete 40 projects under the Neighborhood
Redevelopment Program. Supportive Housing Program funds were used for acquisition and new
construction or rehabilitation of properties by not-for-profit organizations to develop new
permanent housing for homeless and low-income single adults. The City drew $41.5 million in
HOME funds to complete 10 projects under the Supportive Housing Program.

Our audit objectives were to determine whether the City (1) properly committed and disbursed
HOME funds; (2) adequately monitored its community housing development organizations,
projects, and contractors; and (3) correctly reported its match contributions.




                                               5
                                 RESULTS OF AUDIT

Finding 1: Weaknesses Existed in the City’s Procedures for Monitoring
           HOME Funds
While the City generally committed and disbursed HOME funds in accordance with HOME
regulations, there were weaknesses in its monitoring procedures, which caused noncompliance with
HOME regulations. Specifically, the City did not (1) recertify or evaluate the performance of its
community housing development organizations as required, (2) close out seven projects in HUD’s
Integrated Disbursement and Information System within the prescribed timeframe, and (3) use
correct affordability periods for monitoring 47 completed HOME funded projects. This
noncompliance occurred because the City (a) lacked procedures to recertify and evaluate the
performance of its community housing development organizations, (b) lacked procedures to collect
data to document that the seven projects met HOME affordability requirements, and (c) began
projects’ affordability periods either at an earlier or later date than the date on which projects’
completion data were entered into HUD’s Integrated Disbursement and Information System.
Consequently, the City lacked assurance that its community housing development organizations
were properly organized and operated effectively, data in HUD’s Integrated Disbursement and
Information System accurately reflected the status of its HOME funds related to seven projects, and
47 completed HOME funded projects being monitored met the statutory HOME eligibility
requirements throughout the applicable affordability periods.


 Weakness in Community
 Housing Development
 Organization Monitoring


               The City did not recertify and monitor the performance of its community housing
               development organizations as required by HOME regulations. Our review of the
               files of four community housing development organizations disclosed that
               certifications were reviewed neither annually nor at the time of additional
               funding, and ongoing performance was not evaluated.

               Regulations at 24 CFR (Code of Federal Regulations) 92.504(a) require the City
               to monitor its community housing development organizations and conduct a
               performance review at least annually. Community Planning and Development
               Notice 97-11 states that only nonprofit organizations that have been certified by
               HOME participating jurisdictions can receive funds from the minimum 15 percent
               set-aside, and to be eligible for set-aside funds, community housing development
               organizations must be organized and structured according to the standards
               provided in HOME regulations at 24 CFR 92.2.

               Although the City had adequate procedures for monitoring individual project
               compliance with HOME regulations, which can include projects that are owned,


                                                 6
            developed, and sponsored by its community housing development organizations,
            it lacked procedures to recertify the eligibility of its community housing
            development organizations annually or at the time of application for additional
            funding. The City also did not have adequate procedures for ongoing monitoring
            and evaluation of community housing development organization performance as
            suggested in chapter 3 of the Building HOME guidebook. Chapter 3 notes that
            evaluation of these organizations is designed to help identify their operational
            strengths and weaknesses and that an evaluation of performance may include a
            review of the following factors: completion of funded projects, timeliness and
            ability to complete projects within established budget parameters, human
            resources, adequate financial resources, ability to leverage other resources,
            adequate financial systems, board operations, strategic plans, organizational work
            plans, record keeping, compliance with HOME targeting requirements, and board
            composition and operations.

            A City official agreed that the City is required to recertify its community housing
            development organizations but contended that HUD does not require ongoing
            evaluation of community housing development organizations’ performance. A
            HUD Office of Community Planning and Development official stated that
            recertification annually or at the time of additional funding is required, as is
            evaluation of community housing development organization performance on an
            ongoing basis. The official noted that these requirements would be in addition to
            any other monitoring of individual projects that the City conducted.

            Despite the position of the City official, in May 2007 during our audit, the City
            reviewed the certification for the four organizations, which we had reviewed, and
            a City official stated that the City was working with a HUD contractor to develop
            procedures to review community housing development organizations’
            certifications annually.

Projects Not Closed in a Timely
Manner
            Regulations at 24 CFR 92.502(d)(1) require that complete project completion
            information be entered into HUD’s Integrated Disbursement and Information
            System within 120 days of the final project drawdown, and if satisfactory project
            completion information is not provided, HUD may suspend further project setups
            or take other corrective actions. Regulations at 24 CFR 92.503(b) provide that
            any HOME funds invested in housing that does not meet the affordability
            requirements must be repaid by the participating jurisdiction. The City had not
            entered information into HUD’s Integrated Disbursement and Information System
            to accurately reflect the status of seven projects.

            As part of a 2006 nationwide initiative to ensure that completed HOME-funded
            projects were properly closed out in HUD’s Integrated Disbursement and
            Information System, HUD identified seven City projects totaling $6.7 million



                                             7
                            that, despite a final drawdown in May 1998, had not been closed out. The City
                            was unable to close these projects because it lacked documentation for
                            compliance with HOME affordability requirements. Accordingly, in February
                            2007, the City requested a waiver of the HOME regulations at 24 CFR 92.503(b).
                            While the waiver was initially denied by the HUD field office, discussion
                            between the field office and HUD’s Office of Affordable Housing Programs
                            resulted in the approval of a process whereby the City could “voucher out” the
                            $6.7 million in ineligible costs.

                            By vouchering out, the City was to identify new projects to replace the $6.7
                            million. This process was documented in an e-mail to the City from the field
                            office in response to the City’s request for written verification that this process
                            was acceptable and that the City would not be found in violation of HOME rules
                            in the months it would take to identify new projects. While the City had
                            identified projects against which the $6.7 million would be applied, formal
                            corrective action had not been implemented because City officials were still
                            determining which project(s) best met the schedule established by the local field
                            office. Consequently, HUD’s Integrated Disbursement and Information System
                            reported that $6.7 million was disbursed for seven projects that had not been
                            closed out although final disbursements had been made. Further, the Integrated
                            Disbursement and Information System did not reflect that these projects were
                            ineligible under HOME regulations and that specific replacement projects had not
                            been identified. Without information in HUD’s Integrated Disbursement and
                            Information System identifying these seven projects as ineligible and in the
                            process of being vouchered out, HUD’s Integrated Disbursement and Information
                            System would not accurately reflect the status of the City’s HOME funds.

  Incorrect Affordability Periods
  Used for Monitoring Projects

                            Regulations at 24 CFR 92.252(e) require HOME-assisted units to meet the
                            affordability requirements for not less than the specified period, beginning after
                            project completion.2 Section 92.2 states that project completion means that all
                            necessary title transfer requirements and construction work have been performed,
                            the project complies with the requirements of this part, the final drawdown has been
                            disbursed for the project, and project completion information has been entered into
                            HUD’s Integrated Disbursement and Information System. The City did not use the
                            correct affordability periods for monitoring its completed projects. Our review of
                            234 projects monitored by the City in 2005, representing 415 HUD Integrated
                            Disbursement and Information System activities, found that the City monitored 47

2 The statutory minimum period of HOME affordability is five years for rehabilitation or acquisition of existing housing with a per unit amount of HOME funds under $15,000, 10 years
   for funds of $15,000 to $40,000, 15 years for those units over $40,000 or for rehabilitation involving financing, and 20 years for new construction or acquisition of newly constructed
   housing.




                                                                                           8
             projects (92 Integrated Disbursement and Information System activities ) using an
             incorrect affordability period. Therefore, some projects might not be monitored for
             eligibility throughout the entire period of affordability. This condition occurred
             because the City began the affordability period either at an earlier or later date than
             the date projects’ completion data were entered in HUD’s Integrated Disbursement
             and Information System. City officials contend that this occurred because data
             were corrupted during conversion from HUD’s old system to the Integrated
             Disbursement and Information System for some projects and post completion
             updates changed the completion dates for other projects in HUD’s Integrated
             Disbursement and Information System. Consequently, the City lacked assurance
             that 47 completed HOME funded projects (92 Integrated Disbursement and
             Information System activities) would meet the statutory HOME eligibility
             requirements throughout the period of affordability.

Conclusion

             While the City generally committed and disbursed HOME funds in accordance
             with HOME regulations, it had weaknesses in its monitoring procedures that
             resulted in noncompliance with HOME regulations. Consequently, the City
             lacked assurance that (a) its community housing development organizations were
             properly organized and operated effectively, (b) data in HUD’s Integrated
             Disbursement and Information System accurately reflected the status of its
             HOME funds related to seven projects, and (c) 47 HOME-funded projects (92
             Integrated Disbursement and Information System activities) were meeting the
             statutory HOME eligibility requirements throughout the applicable affordability
             periods.

Recommendations

             We recommend that the Director of HUD’s New York Office of Community
             Planning and Development instruct the City to

             1A. Implement procedures to annually or at the time of additional funding
                 review its community housing development organizations for certification
                 (designation).

             1B. Develop, in consultation with HUD’s contractor, procedures to evaluate the
                 performance of its community housing development organizations on an
                 ongoing basis.

             1C. Enter information into HUD’s Integrated Disbursement and Information
                 System to reflect that seven open projects are ineligible and include the
                 status of the vouchering-out process.




                                                9
1D. Implement monitoring procedures to ensure that the 47 HOME-funded
    projects (92 Integrated Disbursement and Information System activities) with
    incorrect affordability periods meet the statutory HOME eligibility
    requirements throughout the period of affordability.

1E. Implement procedures to ensure that all completed projects are monitored
    for the specified affordability period beginning after project completion data
    have been entered into HUD’s Integrated Disbursement and Information
    System.




                                10
Finding 2: The City Incorrectly Calculated and Reported Its Match
           Contributions
The City used an incorrect methodology to calculate the value of its HOME match contributions
and reported match contributions related to six projects twice. These errors occurred because the
City lacked consistent procedures for calculating its match contribution and did not have
adequate procedures for identifying duplicate match contributions reported. As a result, while
the City met its HOME match requirements and reported to HUD a substantial balance of match
contributions made in excess of the required amount, the City reported $34.1 million that was
ineligible match contributions. If not corrected, the City could use the $34.1 million to secure
$136.4 million in HOME funds in future years.


Incorrect Match Calculation

                            The City incorrectly calculated the value of its match contributions in four of six
                            programs tested. Community Planning and Development Notice 97-03 defines
                            eligible match contribution as a permanent contribution from nonfederal sources
                            to a HOME project. The HOME Final Rule requires that each participating
                            jurisdiction make contributions of not less than 25 percent 3 of the funds drawn
                            from the jurisdiction’s HOME Investment Trust Fund Treasury account in a fiscal
                            year related to housing that qualifies as affordable housing under the HOME
                            program. The rule also provides that contributions made in a fiscal year that
                            exceed a participating jurisdiction’s match liability for that fiscal year may be
                            carried over and applied to future fiscal years’ match liability.

                            Notice 97-03 further requires that the City maintain a log that identifies match
                            liability as it is incurred and the type and amount of each match contribution. In
                            identifying eligible types of match, the notice provides that when match consists
                            of below-market interest rate loans made from nonfederal funds with loan
                            proceeds repaid to an account other than the HOME account, the match should be
                            valued at the present discounted value of the yield foregone. The notice also
                            requires that when fewer than 50 percent of a project’s units are HOME assisted,
                            match contributions are allowable only to HOME-assisted units and units that
                            meet the HOME affordability requirements.

                            Review and testing of three match contributions reported in the 2005 HOME
                            Match Report related to the Supportive Housing Program disclosed that the City
                            incorrectly reported the value of each match contribution because it did not (1)
                            calculate the present discounted value of the yield foregone of the loans and (2)
                            prorate its match contribution to only the HOME units for projects with fewer
                            than 50 percent HOME units. City officials agreed that the match contributions
                            for all Supportive Housing Program projects were calculated incorrectly. Later

3 The City received a 50 percent match reduction resulting in a 12.5 percent match requirement for 2005 and 2006.




                                                                                          11
                          review disclosed that the City reported match contributions related to 18
                          Supportive Housing Program projects for the period October 1, 2004, through
                          December 31, 2006. City officials provided documentation for the recalculation
                          of the match contributions for each of these 18 projects. Review and analysis of
                          the documentation determined that the match reported for these 18 projects was
                          overvalued by $28 million. As a result, the City incorrectly reported $28 million
                          as available match contributions, which could entitle the City to draw down $112
                          million in HOME funds in future years.

                          An additional review of 10 sampled match contributions in five other City
                          programs 4 reported for the period October 1, 2004, through December 31, 2006,
                          disclosed that the City correctly valued four match contributions in two programs
                          and incorrectly calculated six match contributions in three programs, resulting in
                          overvaluation of match by $2.6 million. Specifically, four match contributions for
                          the City’s Neighborhood Entrepreneurs and Neighborhood Redevelopment
                          Programs did not include a calculation of the present discounted value of the yield
                          foregone of the loans and incorrectly prorated one match contribution. These
                          improper calculations caused match to be overvalued by $1.8 million. Two match
                          contributions for the City/State Permanent Housing for the Homeless Program did
                          not include a calculation of the present discounted value of the yield foregone of
                          the loans and incorrectly calculated the present discounted cash value of foregone
                          taxes. These errors resulted in a match overvaluation of $838,193. As a result,
                          the City incorrectly reported $2.6 million as available match contributions, which
                          could entitle the City to draw down $10.4 million in HOME funds in future years.
                          We requested that the City recalculate the remaining match contributions reported
                          for the three programs during the period October 1, 2004, to December 31, 2006,
                          and City officials have begun the recalculations.

  Match Contributions Reported
  Twice

                          The City reported match contributions twice for six projects (activity numbers 221,
                          1108, 1192, 1309, 1316, and 1448). As a result, match contributions for the period
                          October 1, 2004, through December 31, 2006, were overvalued by $3.5 million,
                          which could result in the City’s securing $14 million in HOME funds in future
                          years. These errors occurred because the City did not have controls to check the
                          Excel spreadsheet it used to track match for duplicate match contributions. City
                          officials agreed that these match contributions were erroneously reported twice and
                          agreed to post a correction in the City’s 2007 HOME Match Report. City officials
                          also stated that a database would be used to track matching funds to prevent
                          reporting duplicate match.


4 The five programs are City/State Permanent Housing for the Homeless, Neighborhood Entrepreneurs Program, Neighborhood Redevelopment Program, Participation Loan Program, and
   Small Homes Private Loan Program.




                                                                                    12
Conclusion

             The City met its HOME match requirements for 2005 and 2006 and reported a
             substantial balance of match contributions made in excess of the required
             amounts. Since match contributions in excess of a participating jurisdiction’s
             match obligation are carried forward to apply as a credit toward the next year’s
             match obligation, the value of match contributions must be properly calculated
             and reported to HUD to ensure that the City would comply with any required
             match contribution in future years. The City incorrectly calculated the value of
             match contributions for its Supportive Housing Program and for six sampled
             projects in three other programs and reported its match contributions related to six
             projects twice. These errors resulted in a balance carried forward to future years
             that was overvalued by $34.1 million.

Recommendations

             We recommend that the Director of HUD’s Office of Community Planning and
             Development require the City to

             2A.    Remove $28 million from its 2007 HOME Match Report for match
                    contributions incorrectly reported for the period October 1, 2004, through
                    December 31, 2006, related to 18 Supportive Housing Program projects.

             2B.    Remove $2.6 million from its 2007 HOME Match Report for incorrectly
                    reported match contributions related to six projects from the City/State
                    Permanent Housing for the Homeless, Neighborhood Entrepreneurs, and
                    Neighborhood Redevelopment Programs.

             2C.    Recalculate the value of all other match contributions reported during the
                    period October 1, 2004, through December 31, 2006, for the
                    Neighborhood Entrepreneurs, Neighborhood Redevelopment, and
                    City/State Permanent Housing for the Homeless Programs. If any of these
                    contributions were incorrectly valued, the City should correct them in its
                    2007 HOME Match Report.

             2D.    Establish procedures and controls to ensure that loan values are properly
                    discounted to account for the yield foregone, match contributions are
                    prorated for projects with fewer than 50 percent HOME units, and match
                    contributions reported to HUD are accurate.

             2E.    Remove $3.5 million from its 2007 HOME Match Report for match
                    erroneously reported twice related to six projects.




                                              13
                        SCOPE AND METHODOLOGY

To accomplish our audit objectives, we

   •   Reviewed the HOME Investment Partnerships Final Rule, 24 CFR Part 92; HUD
       Handbook 6509.2, REV-5, CHG-1, Community Planning and Development Monitoring
       Handbook; Office of Community Planning and Development notices, Office of
       Management and Budget Circulars A-87 and A-133; and the HUD guidebook entitled
       Building HOME.

   •   Conducted interviews with staff from HUD’s Office of Community Planning and
       Development responsible for the oversight and monitoring of the City’s administration of
       HOME funds and HUD’s Regional Counsel.

   •   Reviewed reports from HUD’s Integrated Disbursement and Information System, the
       City’s HUD-approved action plans and consolidated plan, HUD’s plan review/assessment
       reports, the City’s consolidated annual performance evaluation reports, and independent
       audit reports.

   •   Conducted interviews with the City’s staff to obtain an understanding of the internal
       controls related to the administration of the City’s HOME program.

   •   Ensured compliance with HOME regulations regarding administrative and planning costs
       by analyzing data from HUD’s Integrated Disbursement and Information System. We
       determined that $27.5 million was drawn for administrative and planning costs during the
       audit period; thus, we reviewed the funds drawn and the HOME program funding
       agreements to determine compliance with the 10 percent statutory requirement. We
       selected and reviewed a representative, nonstatistical sample of one voucher, representing
       $14.7 million of the $27.5 million, to ensure eligibility of the costs.

   •   Reviewed a nonrepresentative sample of six completed projects from the Neighborhood
       Redevelopment, Neighborhood Entrepreneurs, and Supportive Housing Programs to
       determine compliance with HOME regulations and eligibility of costs and identify
       weaknesses in internal controls. The sample of six projects represented $48.3 million of
       the $290.4 million disbursed for projects completed during the audit period.

   •   Selected and reviewed a sample of eight Neighborhood Entrepreneurs Program projects
       out of 18 projects that City officials stated began after June 30, 2004, to determine
       whether the City complied with Davis-Bacon requirements for projects begun after City
       fiscal year 2004.

   •   Reviewed HUD’s Integrated Disbursement and Information System data to ensure that
       the requirement that 15 percent of funds be reserved for community housing development
       organizations was met.



                                               14
   •   Selected a sample of four community housing development organizations and reviewed
       the City’s files to determine compliance with HOME regulations.

   •   Reviewed the City’s monitoring policies and procedures for projects, contractors, and
       community housing development organizations to determine compliance with HOME
       regulations.

   •   Reviewed HUD’s Integrated Disbursement and Information System and the 2005 and
       2006 HOME Match Reports to ensure compliance with the statutory match requirement.

   •   Selected and reviewed a nonrepresentative sample of three match contributions totaling
       $16.1 million, related to the City’s Supportive Housing Program, reported in the 2005
       HOME Match Report, to ensure that the match contributions were correctly calculated
       and reported. We later expanded our testing to verify the accuracy of the match
       contribution for all 18 completed Supportive Housing Programs and 10 match
       contributions totaling $34.2 million, related to five other City programs, reported in the
       HOME Match Reports for the period October 1, 2004, through December 31, 2006.

We performed our audit fieldwork between May and October 2007 at the City’s office located at
100 Gold Street, New York, New York. The audit generally covered the period October 1, 2004,
through September 30, 2006, and was expanded as necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                                15
                                INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
                 We determined the following internal controls were relevant to our audit objectives:

             •     Program operations - Polices and procedures that management has implemented
                   to reasonably ensure that a program meets its objectives.

             •     Validity and reliability of data - Policies and procedures that management has
                   implemented to reasonably ensure that valid and reliable data are obtained,
                   maintained, and fairly disclosed in reports.

             •     Compliance with laws and regulations - Policies and procedures that management
                   has implemented to reasonably ensure that program implementation is consistent
                   with laws and regulations.

             •     Safeguarding resources - Policies and procedures that management has
                   implemented to reasonably ensure that resources are safeguarded against waste,
                   loss, and misuse.

                 We assessed the relevant controls identified above.

                 A significant weakness exists if management controls do not provide reasonable
                 assurance that the process for planning, organizing, directing, and controlling
                 program operations will meet the organization’s objectives.




                                                  16
Significant Weaknesses


           Based on our review, we believe the following items are significant weaknesses:

           •      The City did not ensure compliance with laws and regulations because it did
                  not recertify its community housing development organizations or evaluate
                  their performance, close out seven projects in HUD’s Integrated
                  Disbursement and Information System, and use correct affordability periods
                  for monitoring its completed projects (see finding 1).

           •      The City did not ensure the validity and reliability of data because it
                  incorrectly calculated and reported the value of its match contributions to
                  HUD (see finding 2).




                                            17
                                         APPENDIXES

Appendix A

           SCHEDULE OF QUESTIONED COSTS
          AND FUNDS TO BE PUT TO BETTER USE


                        Recommendation             Ineligible1/
                               number                 (millions)
                                        2A            $ 28.0

                                        2B            $   2.6

                                       2E             $ 3.5
                                     Total            $ 34.1


    1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
         activity that the auditor believes are not allowable by law; contract; or federal,
         state, or local policies or regulations. In this case, the City reported $34.1 million
         in ineligible match contributions to HUD as a result of erroneous calculations and
         duplicative claims that should not be made available to match future HOME
         funds.




                                           18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 1




Comment 1




                         20
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         21
                         OIG Evaluation of Auditee Comments

Comment 1   The City's actions are responsive to our recommendation.

Comment 2   While the City identified a replacement project and agreed to comply with the
            recommendation, City officials contend that doing so conflicts with instructions
            received from the HUD field office and that there is no clear mechanism to do so.
            Our recommendation does not negate the instructions from the field office, but
            rather seeks to ensure that HUD's Integrated Disbursement and Information
            System reflects the actual status of the City’s activities until it is able to
            implement the instructions of the field office. In addition, an official of the HUD
            field office advised that there is a mechanism to implement the action
            recommended; therefore, the City should request technical guidance from the
            HUD field office to assist in implementing the narrative information
            recommended.




                                             22
